                                                    National Railroad Passenger Corporation
                                                    Office of Inspector General
                                                    10 G Street N.E.
                                                    Washington, DC 20002



.
                     Amtrak Employee Tested Positive for Marijuana
                                Case Number 10-031
                                   June 18, 2010

The OIG received an allegation that a Providence Maintenance of Way Base employee was
smoking marijuana during his shift. The allegation was referred to Amtrak’s Drug and Alcohol
Programs Manager for investigation. The employee subsequently tested positive for marijuana
and Rule G was implemented placing the employee into treatment under the guidelines of the
Employee Assistance Program.
